<html>
<title> - HEARING ON THE NOMINATIONS OF ANN DUNKIN TO BE ASSISTANT ADMINISTRATOR, EPA OFFICE OF ENVIRONMENTAL INFORMATION; JANE NISHIDA TO BE ASSISTANT ADMINISTRATOR, EPA OFFICE OF INTERNATIONAL AND TRIBAL AFFAIRS; AND THOMAS BURKE TO BE ASSISTANT ADMINISTRATOR, EPA OFFICE OF RESEARCH AND DEVELOPMENT</title>
<body><pre>[Senate Hearing 114-45]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 114-45

HEARING ON THE NOMINATIONS OF ANN DUNKIN TO BE ASSISTANT ADMINISTRATOR, 
 EPA OFFICE OF ENVIRONMENTAL INFORMATION; THOMAS BURKE TO BE ASSISTANT 
ADMINISTRATOR, EPA OFFICE OF RESEARCH AND DEVELOPMENT; AND JANE NISHIDA 
 TO BE ASSISTANT ADMINISTRATOR, EPA OFFICE OF INTERNATIONAL AND TRIBAL 
                                AFFAIRS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________

                        U.S. GOVERNMENT PUBLISHING OFFICE 

95-005 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 11, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     5

                               WITNESSES

Dunkin, Ann, nominated to be Assistant Administrator, EPA Office 
  of Environmental Information...................................     7
    Prepared statement...........................................     9
    Responses to additional questions from Senator Sessions......    12

Nishida, Jane, nominated to be Assistant Administrator, EPA 
  Office of International and Tribal Affairs.....................    13
    Prepared statement...........................................    15
    Responses to additional questions from:
        Senator Inhofe...........................................    18
        Senator Fischer..........................................    20

Burke, Thomas, nominated to be Assistant Administrator, EPA 
  Office of Research and Development.............................    69
    Prepared statement...........................................    71
    Responses to additional questions from:
        Senator Inhofe...........................................    73
        Senator Sessions.........................................    84

 
HEARING ON THE NOMINATIONS OF ANN DUNKIN TO BE ASSISTANT ADMINISTRATOR, 
 EPA OFFICE OF ENVIRONMENTAL INFORMATION; JANE NISHIDA TO BE ASSISTANT 
  ADMINISTRATOR, EPA OFFICE OF INTERNATIONAL AND TRIBAL AFFAIRS; AND 
THOMAS BURKE TO BE ASSISTANT ADMINISTRATOR, EPA OFFICE OF RESEARCH AND 
                              DEVELOPMENT

                              ----------                              


                        THURSDAY, JUNE 11, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Dirksen Senate Office Building, Hon. James M. Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Boxer, Capito, Boozman, Fischer, 
Sullivan, and Cardin.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Our meeting will come to order and we will 
start with opening statements.
    Today we are receiving the nominations of three EPA 
nominees: Ann Dunkin, to be Assistant Administrator of the 
Office of Environmental Information; Jane Nishida, to be 
Assistant Administrator of the Office of International and 
Tribal Affairs; and Thomas Burke, to be Assistant Administrator 
of the Office of Research and Development.
    This committee intends to be fair and thorough in reviewing 
EPA nominees. The President has the right to nominate people 
who support his agenda, but the Senate has the right and 
responsibility to review his nominees to make sure that they 
are qualified and responsible professionals.
    The President has nominated five officials for various 
positions in the EPA. We received completed paperwork for 
three, that is the three of you, on May 27 and promptly 
scheduled this hearing. We are still waiting for paperwork on 
the other two nominees, including Stan Meiburg, the nominee for 
EPA Deputy Administrator, even though he was nominated in 
January, and Karl Brooks, the nominee for Assistant 
Administrator for the Office of Administration and Resources 
Management.
    This is the second nomination for Ms. Dunkin and Ms. 
Nishida, and the third for Mr. Burke.
    Even though Senator Reid chose not to bring these nominees 
to the full Senate for a vote, these individuals became EPA 
employees after they were first nominated and are working in an 
acting capacity in the positions for which they have been 
nominated. As a result, I would remind my colleagues who aren't 
here yet that, unlike many nominees, these individuals are 
answerable for the current policies and actions of the offices 
to which they are nominated.
    This is a rare occasion because most of the time when this 
happens they haven't been in an acting capacity, and you folks 
have, so that gives you and us an opportunity to have higher 
expectations.
    Now, I do have questions about the quality and transparency 
of EPA science, GAO's recommendations to improve EPA's Science 
Advisory Board, progress in fixing the human health risk 
assessment program, and the fracking study; about the 
transparency of the information provided on the grants it 
awards. That is something I have been concerned about since the 
time 10 years ago when I had the same capacity. And about the 
quality of information that the EPA puts out and their social 
media campaigns; and about the money we are spending overseas.
    So I appreciate the witnesses being here today and I look 
forward to asking these questions.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Today we are reviewing the nominations of three EPA 
nominees: Ann Dunkin, to be Assistant Administrator of the 
Office of Environmental Information; Jane Nishida, to be 
Assistant Administrator of the Office of International & Tribal 
Affairs; and Thomas Burke, to be Assistant Administrator of the 
Office of Research and Development.
    This Committee intends to be fair and thorough in reviewing 
EPA nominees. The President has a right to nominate people who 
support his agenda, but the Senate has a right and 
responsibility to review his nominees to make sure they are 
qualified and responsible professionals.
    The President has nominated 5 officials for various 
positions at EPA. We received completed paperwork for 3 
officials on May 27, and promptly scheduled this hearing. We 
are still waiting for paperwork on the other two nominees, 
including Stan Meiburg, the nominee for EPA Deputy 
Administrator, even though he was nominated in January, and 
Karl Brooks, the nominee to be Assistant Administrator for the 
Office of Administration and Resources Management.
    This is the second nomination for Ms. Dunkin and Ms. 
Nishida, and the third for Mr. Burke.
    Even though Senator Reid chose not to bring these nominees 
to the full Senate for a vote, these individuals became EPA 
employees after they were first nominated and are working in an 
acting capacity in the positions for which they have been 
nominated.
    As a result, I would remind my colleagues that, unlike many 
nominees, these individuals are answerable for the current 
policies and actions of the offices to which they are 
nominated.
    I do have questions--
     about the quality and transparency of EPA science, GAO's 
recommendations to improve EPA's Science Advisory Board, 
progress in fixing the human health risk assessment program, 
and the fracking study,
     about the transparency of the information provided on the 
grants it awards,
     about the quality of information that EPA puts out and 
their social media campaigns, and
     about the money we are spending overseas.
    I appreciate the witnesses being here today, and I look 
forward to asking you questions.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much.
    Today our committee is considering three nominations and, 
Mr. Chairman, I am grateful that you are having this hearing 
and I am hopeful that we can move forward on them because it is 
so critical to move forward with these particular people. We 
want our agencies to fulfill their missions to serve the 
American people.
    I also want to note that all of our nominees today were 
reported favorably out of this committee in the last Congress 
and they have been re-nominated by the President. So, as you 
have pointed out, they have been out here for a while.
    We will hear from Ann Dunkin, who hails from my home State 
of California. She has been nominated to be the Assistant 
Administrator for Environmental Information at the EPA. She has 
over two decades of technology management in the private sector 
and the public sector, and she had 20 years at Hewlett Packard, 
Mr. Chairman. So for my colleagues that say it is important to 
have that kind of private business experience, she has had 
that.
    For the past 4 months she has been serving as the Chief 
Information Officer at EPA. And prior to that she was Chief 
Technology Officer for the Palo Alto Unified School District, 
where she managed all aspects of the district's technology 
strategy, infrastructure, and operations. Her experience spans 
the disciplines of manufacturing engineering, software quality, 
research and development, operations and information.
    If confirmed, she will be responsible for managing EPA's 
information technology investments, providing technology 
services in OEI, which collects, manages, provides, and 
safeguards environmental information. She would be charged with 
leading the Agency's security program, which ensures that EPA 
has a protected IT infrastructure.
    Mr. Chairman, this is not an ideological position. This is 
an issue of having the support within the Agency we, I think, 
all agree is necessary.
    We will also hear from Jane Nishida. I know she is going to 
be introduced by Senator Cardin, so I won't say much about her 
personally; I will defer to him. But she has been nominated to 
be the Assistant Administrator for the International and Tribal 
Affairs for the EPA. And the mission of that office is to 
protect human health and the environment while advancing U.S. 
national interests through international environmental 
collaboration.
    I will skip over all of her amazing qualifications and hope 
that we move her forward expeditiously.
    The committee is also considering the nomination of Dr. 
Thomas Burke to be Assistant Administrator for EPA's Office of 
Research and Development, which conducts research, provides 
expertise on science and technology issues to many EPA 
programs.
    We know that strong science is the foundation of EPA 
safeguards to protect public health and the environment, and I 
know, although, Mr. Chairman, you and I agree most all the time 
on the environmental issues, I know we want good people who are 
working on the science so that we have confidence that, 
whatever side of the issue we are on, we get the honest 
opinions.
    So, currently, Mr. Burke is serving as the Deputy Assistant 
Administrator of the Office of Research and Development and is 
Science Advisor for EPA.
    Before joining EPA, Dr. Burke was a Professor and Associate 
Dean of the Johns Hopkins Bloomberg School of Public Health in 
Baltimore, Maryland. He has over 35 years of experience in 
State and Federal leadership positions in health and 
environmental issues, including as an official at the State of 
New Jersey's Department of Health and Department of 
Environmental Protection.
    Dr. Burke has also chaired several studies by the National 
Academy of Sciences and he has served on multiple EPA science 
advisory councils.
    Mr. Chairman, if confirmed, Dr. Burke would play a pivotal 
role in ensuring that EPA's Office of Research and Development 
conducts critical science research to help safeguard the health 
of our constituents.
    Today's hearing is such an important part of the 
confirmation process. I hope that these nominees will move 
forward expeditiously.
    Sometimes, when we have controversial nominees, we have a 
lot of people here. I am hopeful that the three of us are here 
and that it is calm and that that is perhaps a good sign that 
we can move you all forward.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator Boxer follows:]

                   Statement of Hon. Barbara Boxer, 
               U.S. Senator from the State of California

    Today, the Committee on Environment and Public Works is 
considering three nominations. The confirmation of highly 
qualified individuals to lead Federal agencies is an extremely 
important responsibility of the Senate. It is critical that we 
move forward with these nominations so that Federal agencies 
can fulfill their mission to serve the American people. I would 
also like to note that all three of today's nominees were 
reported favorably out of this Committee in the last Congress 
and have been re-nominated by the President.
    We will hear from Ann Dunkin, who hails from my home State 
of California. Ms. Dunkin has been nominated to be the 
Assistant Administrator for Environmental Information (OEI) at 
the Environmental Protection Agency (EPA). She has over two 
decades of technology management experience in both the private 
and public sectors, including nearly 20 years at Hewlett 
Packard. For the past 4 months, she has been serving as the 
Chief Information Officer at EPA. Prior to joining EPA, she was 
the Chief Technology Officer for the Palo Alto Unified School 
District in Palo Alto, California, where she managed all 
aspects of the District's technology strategy, infrastructure 
and operations. Her experience spans the disciplines of 
manufacturing engineering, software quality, research and 
development, and operations and information.
    If confirmed, Ms. Dunkin will be responsible for managing 
EPA's information technology investments and providing 
technology services in OEI, which collects, manages, provides, 
and safeguards environmental information. She would also be 
charged with leading the agency's Security Program which 
ensures EPA has a protected IT infrastructure.
    We will also hear from Jane Nishida. Ms. Nishida has been 
nominated to be the Assistant Administrator for International 
and Tribal Affairs (OITA) for the EPA. The mission of EPA's 
Office of International and Tribal Affairs is to protect human 
health and the environment while advancing U.S. national 
interests through international environmental collaboration.
    Ms. Nishida brings 30 years of experience working in 
Federal and State government, and international and 
nongovernmental organizations. She is currently serving as the 
Acting Assistant Administrator for International Affairs, and 
Principal Deputy Assistant Administrator for International 
Affairs at the EPA.
    Prior to her positions at EPA, she served in senior 
environmental policy roles at the World Bank and she was the 
Secretary of the Maryland Department of Environment. If 
confirmed, Ms. Nishida would be responsible for identifying 
international environmental issues and implementing technical 
and policy initiatives to address those issues.
    The Committee is also considering the nomination of Dr. 
Thomas Burke to be Assistant Administrator for EPA's Office of 
Research and Development, which conducts research and provides 
expertise on science and technology issues to many EPA 
programs.
    We know that strong science is the foundation of EPA's 
safeguards to protect public health and the environment. Dr. 
Burke brings over three decades of experience on these issues. 
Currently, he is serving as the Deputy Assistant Administrator 
of the Office of Research and Development (ORD) and the Science 
Advisor for EPA. Before joining EPA, Dr. Burke was a professor 
and Associate Dean of The Johns Hopkins Bloomberg School of 
Public Health, in Baltimore, Maryland. He has over 35 years of 
experience in State and Federal leadership positions in health 
and environmental issues, including as an official at the State 
of New Jersey's Department of Health and Department of 
Environmental Protection. Dr. Burke has also chaired several 
studies by the National Academy of Sciences and has served on 
multiple EPA science advisory councils.
    If confirmed, Dr. Burke would play a pivotal role in 
ensuring that EPA's Office of Research and Development conducts 
critical scientific research to help safeguard human health and 
ecosystems from environmental pollutants.
    Today's hearing is an important step forward in the 
Senate's confirmation process, and I hope that these nominees 
move forward expeditiously. It is critical that the many 
vacancies at EPA be filled with qualified nominees. EPA has a 
critical mission to help protect public health and the 
environment, and EPA's mission is strongly supported by the 
American public.

    Senator Inhofe. Thank you, Senator Boxer.
    I would like to recognize Senator Cardin for your purpose 
of making a statement or introduction.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you. I join 
Senator Boxer in thanking you for convening this hearing on 
three very well qualified individuals: Dr. Burke, who has some 
ties to Maryland; Ann Dunkin from California; and Jane Nishida, 
who we are particularly proud of in our State as the former 
Secretary of the Department of the Environment.
    I want to thank all three of you and I want to thank your 
families for your willingness to serve the public. These are 
tough times and difficult to step forward, and we thank you. We 
know it is a personal sacrifice and sacrifice of your families.
    Mr. Chairman, I particularly want to welcome our nominee, 
Jane Nishida, before the committee. I have known and worked 
with Ms. Nishida for many, many years. From 1995 to 2002 she 
worked as the Secretary of Maryland's Department of the 
Environment. Additionally, she served as the Maryland Executive 
Director of the Chesapeake Bay Foundation.
    I know you all have heard me talk enough about the 
Chesapeake Bay, so I won't reiterate my love for our Bay. But I 
want you to know that Ms. Nishida is well known for her 
professionalism and supported by all of the stakeholders in her 
work that she did with the Bay and with the State of Maryland. 
She has great respect from the governments, great respect from 
the NGOs, from the business community, including the 
agricultural sector. She knew how to bring people together not 
only, I would say, in a non-partisan environment, not 
necessarily even bipartisan, to get results.
    She also held positions as a legislative officer in the 
Maryland Governor's Office and Committee Counsel of Maryland 
General Assembly, and she reminded me that we first started 
getting to know each other when I was Speaker of the House of 
the Maryland General Assembly.
    Prior to joining the EPA in 2011, she was the Senior 
Environmental Specialist for The World Bank. She currently 
holds the position of Principal Deputy Assistant Administrator 
for EPA's Office of International and Tribal Affairs.
    Mr. Chairman, we have a person who brings to this position 
that she is seeking our confirmation experience at the State 
level and at the national level. She has worked in the 
executive branch, in the legislative branch. She understands 
the sensitivities of how this position needs to be responsive 
to all of the stakeholders under the responsibility of the 
position.
    I have been very impressed with her knowledge and 
dedication to environmental issues and very much respect her 
ability to work along with Democrats and Republicans in a way 
to get things done. I have every confidence that she will do a 
fantastic job as the Assistant Administrator for the Office of 
International and Tribal Affairs. I thank her for her 
willingness to step forward and I am proud to introduce her 
today.
    Senator Inhofe. Thank you, Senator Cardin.
    We have three procedural questions to ask each one of you. 
I will read the questions and I would like to have each of you 
answer individually, starting with you, Ann, and working 
across. OK?
    Do you agree, if confirmed, to appear before this committee 
or designated members of this committee, or other appropriate 
committees, and provide information subject to appropriate and 
necessary security protection with respect to your 
responsibilities?
    Ms. Dunkin. Yes, I do.
    Ms. Nishida. Yes, I do.
    Mr. Burke. Yes, I do.
    Senator Inhofe. Thank you.
    Do you agree to ensure that testimony, briefings, 
documents, and electronic and other forms of communication of 
information are provided to this committee and its staff and 
other appropriate committees in a timely fashion?
    Ms. Dunkin. Yes, I do.
    Ms. Nishida. Yes, I do.
    Mr. Burke. Yes, Senator.
    Senator Inhofe. And do you know of any matters which you 
may or may not have disclosed that might place you in a 
conflict of interest if you are confirmed?
    Ms. Dunkin. No, I do not.
    Ms. Nishida. No, I do not.
    Mr. Burke. No, I do not.
    Senator Inhofe. Thank you very much.
    You are recognized for your opening statement, Ms. Dunkin.

      STATEMENT OF ANN DUNKIN, NOMINATED TO BE ASSISTANT 
     ADMINISTRATOR, EPA OFFICE OF ENVIRONMENTAL INFORMATION

    Ms. Dunkin. Thank you. Good morning, Chairman Inhofe, 
Ranking Member Boxer, and other members of the committee.
    It is my honor to appear before you as President Obama's 
nominee to be the Assistant Administrator for Environmental 
Information for the Environmental Protection Agency.
    Before I begin, I want to thank my partner, Kathleen, for 
her support throughout this process and for joining me here 
today.
    While they are no longer with us, I also want to 
acknowledge my parents for making it possible for me to be 
here. My mother started programming in the 1950s at the 
University of Pennsylvania, one of two women in her class at 
Wharton. She has been a lifelong role model for me.
    My father, who believed that all of his children, including 
his daughters, could do anything they set out to do, inspired 
me to pursue my dreams, even in the male-dominated fields of 
engineering and technology.
    My father's family is full of engineers and I have always 
loved technology, so it was no surprise that I studied 
engineering in college. I chose industrial engineering because 
I cared about people and systems, as well as things.
    After graduating from the Georgia Institute of Technology, 
I joined Hewlett Packard, where I worked for nearly 20 years. I 
started as a manufacturing engineer and quickly moved into 
manufacturing management, where I learned the core values that 
were embodied in the HP way and that even today guide my work 
as a leader, values such as treating people with trust and 
respect, always acting with integrity, and accomplishing 
results through teamwork.
    Over time, I moved from manufacturing management to 
software quality, to research and development, to operations, 
and then to information technology, earning progressively more 
responsibility along the way. I worked on many exciting 
projects and programs, ranging from running operations for HP's 
entrepreneurial Internet startup businesses during the dot-com 
boom, to managing the IT organization for Indigo, an Israeli 
digital press manufacturer that HP acquired.
    My final position at HP was back in R&D as the program 
manager for a major new printer development program.
    Throughout my time in HP's technology-intensive 
environment, I learned how to manage, lead, and optimize 
technology functions. And since people are any organization's 
greatest asset, I learned how to work with and lead people at 
the same time. From managing a small development team to 
leading a group of 500 as a program manager, I developed my 
professional expertise in designing and running technical 
organizations in one of the best technology companies in 
history.
    After I left HP, I joined the Palo Alto Unified School 
District as the Director of Technology and later as the Chief 
Technology Officer, where I was responsible for envisioning, 
procuring, and supporting technology solutions to enable the 
work of 12,500 high-achieving K-12 students, along with nearly 
2,000 faculty and staff.
    While I loved to build new exciting technology at HP, I 
found that working for the Palo Alto Unified School District 
and helping every student and staff member achieve their 
potential was more meaningful. Working in the public sector has 
allowed me to contribute more profoundly to my community than 
working in the private sector.
    Joining the Environmental Protection Agency, where I have 
been able to contribute not just to my local community, but to 
impact the entire Country and help improve the quality of life 
for every American, has been a logical next step for me both 
professionally and personally.
    It has been a privilege to serve the EPA and Administrator 
McCarthy for the past 10 months and to serve as the EPA's CIO 
for the past 4 months. I am excited about the opportunities 
before us to build on EPA's successes and improve the delivery 
of information technology services throughout the agency, to 
improve the delivery of mission services to support the States, 
tribes, and regulated community and general public, and to 
deliver better tools that will allow EPA staff to be more 
effective and efficient in the performance of their duties.
    I am excited by the opportunity that the Federal 
Information Technology Acquisition Reform Act provides to 
improve oversight and accountability of IT projects and 
programs throughout the agency, and I am pleased to have the 
opportunity to bring digital services expertise into the Agency 
to transform the way the Agency performs IT work to allow us to 
become more agile and deliver customer-centric, not 
stakeholder-centric, services.
    While I am able to lead many of EPA's IT functions as CIO, 
there are important duties reserved for the Assistant 
Administrator. Should I be confirmed, I look forward to the 
opportunity to bring my experience and expertise to the 
performance and the responsibilities of the Assistant 
Administrator for Environmental Information.
    Thank you, Chairman Inhofe, Ranking Member Boxer, and 
members of the committee for the opportunity to meet with you 
today. I am happy to answer your questions.
    [The prepared statement of Ms. Dunkin follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Senator Inhofe. Thank you, Ms. Dunkin.
    Ms. Nishida.

     STATEMENT OF JANE NISHIDA, NOMINATED TO BE ASSISTANT 
 ADMINISTRATOR, EPA OFFICE OF INTERNATIONAL AND TRIBAL AFFAIRS

    Ms. Nishida. Thank you.
    Good morning, Chairman Inhofe, Ranking Member Boxer, and I 
would also like to give a special thanks to Senator Cardin for 
his kind introductory remarks.
    I am humbled to appear before you today as President 
Obama's nominee to be the Assistant Administrator for 
International and Tribal Affairs at the U.S. Environmental 
Protection Agency.
    For the past 30 years I have worked in the field of the 
environment at both the State and Federal level, and with 
international and non-governmental organizations. It has been 
my privilege to spend the last 4 years working at EPA, where 
every day I have strived to further the Agency's role in 
protecting human health and the environment.
    Sitting here before you in these chambers, I think about my 
parents and wish they could be with me here today. They are no 
longer with us, but I know that, if they were, they would be 
beaming with pride.
    My father served in the U.S. Foreign Service for over 30 
years, so from a very young age the importance of public 
service was ever-present in my life. I saw first-hand the power 
the United States has to improve people's lives both at home 
and abroad.
    I got my first start in public service working as committee 
counsel in the Maryland General Assembly, where I worked with 
Senator Cardin, as he noted in the introductory remarks. My 
experience in the Maryland General Assembly was invaluable. I 
learned about the importance of the legislative process and the 
important roles of the legislative and executive branches of 
government.
    My next position was in the Maryland executive branch, 
where I served under three different Governors. As a Governor's 
legislative liaison, I worked on legislative issues relating to 
agriculture, environment, natural resources, health, and human 
resources. This enabled me to see clearly the connections 
between human health and the environment, and how they are 
inextricably linked.
    In 1995 I was appointed Secretary of the Maryland 
Department of the Environment. It was a privilege to serve in 
this position for over 7 years, ensuring the quality of 
Maryland's air and water, managing the safe disposal of 
hazardous and solid waste, and restoring and protecting our 
precious Chesapeake Bay. The position taught me how vital it is 
for environmental mangers to involve stakeholders in the 
decisionmaking process, local governments, business, farmers, 
fishermen, and NGOs; to listen and to learn from them. It also 
personalized things for me, to see firsthand how environmental 
protection affects citizens' drinking water, the infrastructure 
of cities, and the vitality of all the places where our 
families live, work, and play.
    When I left Maryland, I took a position as Senior 
Environmental Specialist at The World Bank, sharing the lessons 
that I had worked on for 20 years at the State level with 
developing countries struggling with air, water, and other 
environmental problems. It was an eye-opening experience and 
one that reaffirmed how sharing lessons learned in the United 
States can improve the global environment.
    In 2011 I began my work at EPA, first serving as the 
Director of Regional and Bilateral Affairs within the Office of 
International and Tribal Affairs, and then, in 2013, I became 
the Office's Principal Deputy Assistant Administrator. Taking 
on this second role enabled me to work on the full breadth of 
this Office's portfolio, including managing the American Indian 
Environmental Office, which is responsible for our important 
work with tribal nations.
    Should I be confirmed, I commit to working steadfastly to 
uphold the mission of this Agency and to continue the legacy 
that I learned from a young age from my father, a tireless 
dedication to public service.
    Thank you again, Mr. Chairman, Ranking Member Boxer, and 
members of the committee, for the opportunity to meet with you 
today, and I am happy to answer any questions you might have.
    [The prepared statement of Ms. Nishida follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Inhofe. Well, thank you, Ms. Nishida.
    Mr. Burke.

     STATEMENT OF THOMAS BURKE, NOMINATED TO BE ASSISTANT 
     ADMINISTRATOR, EPA OFFICE OF RESEARCH AND DEVELOPMENT

    Mr. Burke. Good morning, Chairman Inhofe, Ranking Member 
Boxer, and members of the committee.
    It is an honor to appear before you today as President 
Obama's nominee to be Assistant Administrator for Research and 
Development at the U.S. EPA.
    I have devoted my career to public health and environmental 
protection. For more than 37 of EPA's 45 years, I have worked 
closely with the Agency, first as a State scientist, as a 
public health official, as an academic researcher, a member of 
the Science Advisory Board, and have also served on the Board 
of Environmental Studies and Toxicology at the National Academy 
of Sciences and chaired a number of major National Academy 
studies on EPA science.
    Since January I have been serving as the Deputy Assistant 
Administrator for ORD, as well as EPA Science Advisor.
    As with most people, my interests were shaped by my early 
experiences. Growing up in Jersey City, in the shadow of the 
Statue of Liberty, I have vivid memories of my early 
environment, before there was an EPA: the musty smell of low 
tide in New York Harbor, the summer spraying for mosquitoes 
with DDT, the apartment house incinerators, the plumes of smoke 
from the Jersey Central locomotives, and probably, most 
vividly, the chemical mountains, these giant slag heaps from 
the chromium factories just one block from my childhood home.
    I also had a very early interest in health and disease. I 
was born with a congenital heart defect and blessed to have 
life-saving open heart surgery at Johns Hopkins. But three of 
my close childhood friends were not so fortunate; they died 
from leukemia and brain cancer at very young ages.
    My interest in the connection between environment and 
health were galvanized during my graduate studies at the 
University of Texas, when the National Cancer Institute 
released the first maps, the Atlas of Cancer Mortality, that 
showed that my home State and my home county led the Nation in 
cancer deaths; and the media dubbed it Cancer Alley.
    After graduate school, I was named Director of the New 
Jersey Office of Cancer and Toxic Substances, and I led a lot 
of the early research that shaped State and some national 
approaches in looking at pollutants in the environment, 
ensuring safe drinking water, reducing toxic releases, and 
cleaning up hazardous waste. I also investigated childhood 
cancer clusters from Rutherford to Toms River.
    As a State scientist, I served three Governors, both 
Republicans and Democrats, and I stood at their sides during 
environmental emergencies like the dioxin contamination in the 
iron-bound section of Newark, the chromium pollution in Jersey 
City, and the closure of our beaches from sewage spills and 
medical waste.
    Now, these experiences have given me a very practical 
experience and perspective on the importance of strong science 
to guide our difficult environmental decisions. They have also 
shown me that protecting the environment and having a healthy 
economy go hand-in-hand. I think former Governor Tom Caine said 
it best when he said that environmental problems are one of the 
main barriers to economic growth, and these problems directly 
undermine the State's ability to attract and keep jobs.
    So I am proud that New Jersey is now a leader in 
environmental protection and a national example of that 
important link between healthy environment and healthy economic 
growth.
    At Johns Hopkins I devoted myself to improving the 
application of science to decisionmaking. As Director of the 
Risk Sciences and Public Policy Institute, I worked to advance 
the science of evaluating risks, and I am proud to have trained 
many of the emerging leaders in public health and environmental 
science. Hopefully, some of them are watching here today.
    Along with my colleagues, I worked very closely with State 
and local officials and our Federal agencies on a number of 
critical national issues, including terrorism response and 
emergency preparedness, chemical exposures to our troops, the 
toxic flood waters of Katrina, nuclear waste clean up, and 
keeping our food supply safe.
    Through the National Academy of Sciences, I also work with 
science leaders from all sectors to provide guidance to EPA on 
risk assessment. And I was not shy about pushing the EPA to do 
better science. I have deep respect for the work of the Agency, 
and my respect has grown even deeper since joining the Agency.
    Science is indeed the backbone of EPA decisionmaking and 
has been the foundation of our national progress. I believe 
that those tasked with making these decisions about 
environmental protection need to be informed with the best 
science, science that is credible, transparent, and inclusive.
    If confirmed, I look forward to working with members of the 
committee and the stakeholders to make sure we are asking the 
right questions and getting the best scientific answers.
    So, Chairman Inhofe and members of the committee, I want to 
thank you for this opportunity to meet with you today. I also 
want to express my thanks to my wife, Marguerite, who is here 
with me today, who typed my Ph.D. dissertation and has been 
with me all the way.
    Senator Inhofe. Have her hold her hand up. I need to see 
this. There you are. All right.
    Mr. Burke. And I am happy to answer any questions. Thank 
you again.
    [The prepared statement of Mr. Burke follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Inhofe. Thank you very much, Mr. Burke.
    Let me first ask two questions of Ms. Dunkin. The first 
one, I don't want a verbal answer, I just want to have it for 
the record, and then I will expect a written answer, because if 
it is a verbal answer, it is going to take up all the time, I 
am afraid.
    When I was last the chair, I mentioned this in my opening 
statement, it was 10 years ago or 8 years ago, one of the 
concerns I had was to reform grants management, one being the 
creation of an online grants database.
    Now, we have done that; however, from all indications I get 
from everyone who has tried to use this, it is not user-
friendly, it is difficult and time-consuming to find 
information on a specific grant or grantee, and it is hindering 
the public's access to a lot of this important information.
    I guess what I am going to ask you to answer for the record 
is, as the chief information officer managing the EPA's 
capabilities, what steps have you taken to make the grants 
database more user-friendly and what will you do, since I don't 
believe we have accomplished that so far, to accomplish that. 
OK?
    And then, second, in March 2015 there is a court opinion. 
Federal District Court Judge Royce Lamberth found that ``The 
EPA continues to demonstrate a lack of respect for the FOIA 
process'' and that EPA perceived the FOIA requester, the person 
under the Information Act in that case, and that was the 
Landmark Legal Foundation, the EPA perceived that as an enemy 
because of its conservative political affiliation. Now, this 
seems similar to some of the things the IRS scrutiny to 
conservative groups.
    What do you think about that? Is the judge right, Ms. 
Dunkin?
    Ms. Dunkin. First of all, Chairman, we will get you a 
written answer for your first question.
    The second question, so the actions in that particular case 
happened primarily before I joined the Agency, so I can't speak 
to that particular case.
    Senator Inhofe. No, that is not quite true, because I am 
talking about, wasn't it March 2015?
    Ms. Dunkin. Mr. Chairman, I can only speak for my position, 
which is that from my standpoint of running the tools that we 
provide for FOIA and running a small number of FOIAs out of our 
office, we provide the best possible responses we can to FOIAs 
to the offices that respond to them and we, as an Agency, 
expect that people will provide timely and correct responses to 
FOIA requests.
    Senator Inhofe. OK, now, you were in the position on March 
15th, is that correct?
    Ms. Dunkin. Yes, sir.
    Senator Inhofe. Well, why did you just initially say that 
that was before my time, or whatever it was you said?
    Ms. Dunkin. So, Senator, the decision happened in March; 
however, what I was referring to was the activities that 
preceded the decision happened primarily before I joined the 
Agency.
    Senator Inhofe. OK, then I would ask you one more time: is 
the judge right?
    Ms. Dunkin. Senator, I could not speak to the history of 
that case. Certainly, that is not the attitude that we have to 
FOIAs in the Agency.
    Senator Inhofe. Ms. Dunkin, what steps has the EPA taken to 
ensure that requesters are treated in a professional manner, 
without regard to the requester's identity or political 
affiliation? Because you must have, after a statement like 
that, I am hoping you would try to put something in place to 
preclude that from happening again. Have you?
    Ms. Dunkin. Senator, first of all, we have centralized much 
of the search capability, and OEI helps provide search 
responses to the offices that actually respond to the FOIAs. In 
addition, all FOIAs have two levels of review to ensure that 
the documents being released and any redactions to those 
documents are completely fair.
    Senator Inhofe. OK.
    Ms. Nishida, for the record, I want you to get your same 
response to the questions that I had of Ms. Dunkin, OK?
    I want to get some information as to how much money the EPA 
as a whole spends annually on efforts, now, we are talking 
about grants, technical assistance, technology transfers, 
development of standards, or programs, regulations, to improve 
the quality of the environment outside of the United States or 
in grants to foreign countries.
    Can you give me that now? Have you looked into that?
    Ms. Nishida. Yes, Senator, I can give you the answer. 
Actually, there is a very small proportion of EPA's grants 
actually go to international grants, it is less than one-half 
of a percent. And of that less than one-half of a percent, a 
large portion of those grants actually go to U.S. institutions 
who help countries overseas in terms of addressing their 
environmental pollution problems.
    Senator Inhofe. All right. Now, what I would like to have 
you do is, you are saying this, I believe you, but I would like 
to see the documentation as to the amount, how you come up with 
that percentage, and then I would like to be able to visit with 
you about that issue, if that is all right, OK?
    Ms. Nishida. Certainly.
    Senator Inhofe. Then, Mr. Burke, if you don't mind, I will 
take just a few more seconds here and I will sit out for a 
second round.
    The National Academy of Sciences have previously reported 
that if an assistant administrator of the Office of Research 
and Development, ORD, is also a science advisory to the full 
Agency, it creates a conflict of interest. Do you think it 
does?
    Mr. Burke. No, sir. I was part of the discussions with the 
National Academy even before becoming science advisor, and I 
think we have the support of the Board on Environmental 
Studies.
    Senator Inhofe. No, they said it creates a conflict of 
interest. Are you saying that that is not what they said?
    Mr. Burke. No, I am not, Senator. I am just not familiar 
with that particular statement.
    Senator Inhofe. Did you say you were on that at the time?
    Mr. Burke. I served two full terms on the Board on 
Environmental Studies. And I know that there have been 
different perspectives on science advisor being separate from 
the assistant administrator. I think the most important 
message, though, is that there be clear and consistent 
leadership for science at the Agency.
    Senator Inhofe. Well, I think in light of the fact that NAS 
made a recommendation and you disagree with that 
recommendation, and my time has expired, but I would like to 
have you, for the record, give me the detail, as much as you 
can, on that as to why you would disagree with the NAS. Would 
you do that?
    Mr. Burke. I would be happy to provide that.
    Senator Inhofe. Thank you very much.
    Senator Boxer.
    Senator Boxer. Well, good for you for being an independent 
person.
    Let me just say this. We have voted the three of these 
people out by voice vote. I want to make a point. I have not 
seen, in my lifetime, three people who were overly qualified 
for the jobs for which they have been nominated. If we can't 
get you people moving toward the floor, I don't know who would 
be better. And I just want to thank you from the bottom of my 
heart for putting up with all this stuff, for sitting around 
for months.
    Mrs. Burke, Dr. Burke should now type his own papers.
    [Laughter.]
    Mr. Burke. I do.
    Senator Boxer. All right. Because my husband still asks me 
to type things for him, and it really gets me, since he was a 
clerk typist when he was in the Army. But he said he never 
really did learn to type over 30 words of a minute or so.
    Senator Inhofe. You know, I was a clerk typist, too.
    Senator Boxer. Well, that explains a lot.
    Senator Inhofe. No, I am older than he is.
    [Laughter.]
    Senator Boxer. OK, so here is the thing.
    Ms. Dunkin, I am not going to ask any questions of Jane and 
Thomas. We voted you out before. I want you to get to where you 
want to be to help this Agency, which is the subject of a 
tremendous amount of criticism here. So why not have the best 
people? By the way, independent voices and thinkers are 
important.
    But I just wanted to ask you, Ms. Dunkin, just because of 
our tie to California, because you worked for a very innovative 
company. You worked for a great school district. For that I am 
grateful to you, because you pointed out you had a moment in 
your life where you decided you wanted to go help children and 
the public. It is a wonderful transformation.
    So I wanted you to say for the committee how your 
background and experiences working for the Unified School 
District, how did it help shape you and get you ready to do 
this job at the Office of Environmental Information.
    Ms. Dunkin. Thank you, Senator Boxer. Working for the 
school district was a tremendous privilege, helping out the 
children in Palo Alto. The opportunity to work for the district 
gave me two things that helped prepare me for this job. No. 1 
was public service experience. A lot of people come into an 
agency like the EPA from the private sector and they make a lot 
of mistakes because they don't know how the public sector 
works.
    So while the Federal Government and the State of California 
don't work exactly the same, there are enough similarities that 
I knew where the land mines were when I arrived and I knew what 
to expect in terms of how things would operate and what 
questions to ask. So No. 1 is that public sector experience did 
that.
    The second is that it was the first time in my career where 
I had run IT for an entire organization. I ran some big chunks 
of IT for HP, but it is a very different experience to run one 
end of the organization to another and be fully responsible for 
everything from making sure that you have Internet connectivity 
to making sure that you have applications for the students to 
use. So that was a really great experience that prepared me to 
step into another job with that same type of responsibility.
    Senator Boxer. Well, thank you.
    Well, Mr. Chairman, I am hopeful that we can move these 
three people forward. Sometimes we all attack agencies and kind 
of amorphous organizations. Here are three people; each of them 
has a family that is proud of them, each of them has worked 
hard in their life to get where they are, and they are at a 
point where they really want to give back. So I am hopeful.
    You are a good man and I hope that you will help me get 
these people to the floor and get them confirmed. Thank you so 
much.
    I need to run off; I have a meeting in my office now. If 
there is anything that comes up where you want me to come back, 
I will.
    Senator Inhofe. Sounds good. All right.
    Senator Boxer. OK. Thank you. Thank you so much.
    Senator Inhofe. Thank you, Senator Boxer.
    Next we will hear questions from Senator Boozman, but let 
me just ask, do any of the three of you think it is 
unreasonable to respond to the questions that I asked during my 
time? Are they unreasonable questions? No? Thank you very much.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    And thank all of you all for being here. We do appreciate 
your willingness to serve.
    Dr. Burke, I have worked to encourage collaboration and 
work between the EPA and the National Center for Toxicological 
Research. As you know, NCTR is an FDA laboratory based in 
Arkansas. Regulatory science research organizations from around 
the globe come to investigate, learn, and train at NCTR, and we 
are very proud of that facility.
    I know that you are very familiar with the work that has 
gone on through your previous history at Johns Hopkins and 
other areas. Can you tell us a little bit about your view of 
interagency collaboration? These are tight budget times. Talk 
here a little bit about working together. Specifically, will 
you look for ways that EPA can support and work with NCTR to 
perform collaborative work and research?
    Mr. Burke. Thank you, Senator. Thank you for the question. 
It is good to see you again.
    Absolutely, these are tough times and these are times when 
collaboration is more important than ever in the scientific 
community. And as you state, the National Center, NCTR, has 
been a leader in particular in chemical safety assessments and 
nanotechnology. And there is a partnership that we have, along 
with FDA, NCTR, the National Institute of Environmental Health 
Sciences, but we can build more on that.
    We all have a common goal of understanding more about 
chemical safety, understanding how to better protect our food 
and environment. The Center has been a leader and I look 
forward to, if confirmed, and even as science advisor in my 
current position, of promoting that not just for those 
agencies, but because our States and other partners are really 
dependent upon that.
    Senator Boozman. Good. Thank you very much.
    I appreciate that you have taken the time to review the 
bipartisan EPA Science Advisory Board Reform Act. As a former 
member of the SAB, your expertise is certainly valuable to us 
and we appreciate your input.
    I know that our bill is not perfect, and we are certainly 
willing to make changes. You mentioned about credibility, 
transparency, and how important that is. Will you commit to 
work with us and members on both sides of the aisle so that we 
can identify some common sense reforms that will strengthen the 
SAB and ensure that the EPA's scientific process is strong and 
credible?
    Mr. Burke. Absolutely, Senator. Our goal is credibility and 
transparency. We have to have the highest level of review and 
the highest credibility in our science. These are important 
decisions and we are providing the basis for very tough 
choices, so I am very happy to work with you on that.
    Senator Boozman. Good.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boozman.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I want to thank all of you for your service and for the 
long process that you have had to go through.
    I wanted to ask Ms. Dunkin, there was a report and The New 
York Times ran a story about how EPA may have violated Federal 
law in its use of social media in connection with the Waters of 
the USA rulemaking. I read it at the time, but I have been 
curious to know, was that something that was organically grown 
in the Agency or something that was promoted from the top? I 
would just like to hear your perspective on this and if you 
have put guidelines in place to either stop that or had legal 
advice given in terms of how that issue might be impacting in 
the future.
    Ms. Dunkin. Senator, the social media outreach program is 
run through the Office of Public Affairs, so I can't speak to 
the details of any program they run. We do have a social media 
use policy in place in the Agency.
    Senator Capito. Was that in place when this was occurring, 
or are you not familiar?
    Ms. Dunkin. The policy was in place. The IT policy was in 
place at that time, yes.
    Senator Capito. OK. So I am asking the wrong person, I 
guess, is my answer.
    Ms. Dunkin. I am sorry, Senator.
    Senator Capito. OK.
    Let me ask you this, too. We are considering a 
cybersecurity bill on top of our RNDAA bill today. We know this 
is just a rampant problem everywhere internationally and we saw 
where OPM's records were corrupted just recently. I am sure 
this has great concern for you. What are you doing at EPA to 
try to protect against cyber crime and making sure? Because I 
think the inspector general maybe has questioned some of your 
security policies in this area.
    Ms. Dunkin. Yes, Senator. We could probably talk about 
security all day. We are working hard to ensure the security of 
the information assets at the EPA. Just a few of the important 
points that we consider. We need to know what is most important 
to secure, because if we don't set priorities nothing will be 
secured.
    Senator Capito. Right.
    Ms. Dunkin. We are implementing appropriate controls and 
hygiene activities, things like patching systems, things like 
ensuring that systems have authority to operate before they are 
in place and that we know what the risks are with those 
systems. We focus on controlling access, educating users, and 
then we want to make sure that we monitor our network so that 
we know if something happens and that we can respond to that.
    Senator Capito. So has OPM shared what actually happened 
with them with other agencies as a preventive measure for you?
    Ms. Dunkin. We know some of what happened at OPM at this 
point. We don't have all the details.
    Senator Capito. Because I would think that would be a 
useful exercise.
    Ms. Dunkin. Yes. And we share throughout the security 
community and through the CIO community. There is a lot of 
information sharing that goes on. And there is public 
information, there is less public information, and there is 
classified information.
    Senator Capito. OK. All right, thank you.
    Dr. Burke, I am from the State of West Virginia and we have 
had some issues with your agencies I am sure you are well 
aware. I understand that you are the head science guy here. So 
the argument a lot of times that I try to make is that science 
is great and welcomed, and we want it. That is great. But there 
are always economic aspects of every decision that is made, 
particularly in my State by your Agency.
    And I think I know the answer to this, but I just wanted to 
get it out there. Within the realm of your responsibilities, do 
you ever look at the economic impacts of what the science would 
have in terms of a decision that is made based on your science? 
Does everybody ever get in the room and discuss that?
    Mr. Burke. Well, certainly the Agency does. The role of the 
science, though, is to really provide one very important 
cornerstone of that decisionmaking process, and we generally 
focus upon the scientific evidence, say, for instance, of an 
environmental impact. But, really, the Agency decisionmaking, 
and my colleagues in other branches of the Agency, the 
economists and others, very much consider the big picture in 
the decisions within the guidance provided by the statutes.
    And in the analysis of risks, it is also important that we, 
the scientists, get the right question so that those making 
those tough social decisions can understand the impacts across 
the board.
    Senator Capito. And over time, you have been in this 
business a long time, have you seen a lot of change in terms of 
the intensity of the risk of certain things that maybe in the 
1960s were thought to be very, very hazardous that now, as time 
has gone on and more research and development has gone forward, 
may be not as hazardous, and vice versa? Does that change over 
time much, or is the first blush pretty much the last blush?
    Mr. Burke. That is a good question. In science, the first 
blush is rarely the last blush; there is always an evolution of 
the science. And sometimes we understand how things work 
together to transition risks, so sometimes we will actually, 
perhaps may be less concerned. Oftentimes we learn of new 
emerging hazards, too.
    So that is why it is important, I think, to have state-of-
the-art science and be able to respond to not just emerging 
threats, but continually update our knowledge of those 
longstanding things so that we can make the best decisions, 
work with the social scientists and others to really make the 
best societal decisions.
    Senator Capito. OK. Thank you so much.
    Senator Inhofe. Thank you, Senator Capito.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    And thank you all for being here today.
    Mr. Burke, could you comment on the advantages and the 
disadvantages that you see in the process that the SAB uses 
when you provide advice to the Agency?
    Mr. Burke. Sure. First, let me talk about the great things 
that the SAB does.
    I have been privileged to be a two-term member of the SAB 
as an academic researcher before joining the Agency, and I have 
also been very active at the National Academy. And I think they 
are really the gold standards in peer review, the most 
prestigious and influential bodies to really make sure we get 
our science right. So I am very supportive of the SAB.
    That said, it is important the SAB be credible, be 
inclusive, and really represent the best expertise that we have 
in this Nation, and sometimes internationally, to help us make 
sure we have peer-reviewed our science, but also that we frame 
the questions right and we use the best science available.
    So I think I have a lot of respect for the SAB. It is a 
tough process. I can tell you that as an academic scientist it 
is tough to get people to commit to that. We wouldn't want to 
add to the burden of scientists, say, from academia who have 
really tough, challenging jobs. I think we should do everything 
in our power to encourage people to volunteer and be part of 
that process, and it is really an honor to be there.
    But there are some impediments to the process. It is tough 
to make that time commitment. It is an incredibly rigorous 
process to be involved in a review of a major national report.
    Senator Fischer. I agree with you that it is very, very 
important to use the best science possible, and I thank you and 
other scientists who work toward that goal and make that your 
priority. I am curious on how you balance in social impacts. 
That is more subjective. It is almost in opposition to many of 
those hard sciences out there, don't you think?
    Mr. Burke. Well, it is a very good question. Science, 
traditionally, we have had lanes. I am an epidemiologist. We 
look at the association between risk factors and disease. A 
sociologist might look at those social factors that contribute 
to disease. And I think in the evolution of our science of 
decisionmaking, we are really looking at integrating all of 
those things.
    So many of my colleagues on the Science Advisory Board, 
particularly the social scientists, would be very happy to hear 
your question because I do think science is not just analytical 
chemistry; science is understanding the social contributors to 
the quality of life and the environment. And I think that is an 
important direction for not just the SAB, but for the National 
Academy we are recognizing that.
    Senator Fischer. And since you have been at the EPA, can 
you tell me how the Agency has used the SAB and how frequently 
they use it?
    Mr. Burke. Sure. Well, I have a limited time window, but 
let me give you an example of a very, very important role the 
SAB has.
    Senator Fischer. Is it used often?
    Mr. Burke. Yes. It is constantly used. You may have seen 
that we released a major report, a draft report on the impact 
of hydrofracking on our drinking water resources. We turned 
that over to the SAB, a committee of almost 30 representatives 
from the broad sectors of science, who are reviewing that to 
make that we have used the best science, presented it clearly, 
and that our conclusions are justified.
    Senator Fischer. And that was a 4-year report, wasn't it?
    Mr. Burke. Yes. It was a long-term, very tough effort. Very 
comprehensive look.
    Senator Fischer. And we appreciate the work that is put 
forward in that.
    How do you expect ORD's use of the SAB to change if you 
would be confirmed? Do you see a change happening?
    Mr. Burke. I think there is constant evolution. First of 
all, the nature of the Board is that there are changes in 
membership. But, for instance, one of my areas of concentration 
has been risk analysis and risk assessment. The Board has 
changed dramatically in the past 2 years to have a separate 
subcommittee that really looks at how the Agency and really the 
Nation does risk assessment. So it is constantly evolving to 
address, I think, the Nation's toughest challenges, so we need 
to constantly recruit the highest level of talent to serve on 
that Board.
    Senator Fischer. Well, I thank all three of you for your 
willingness to serve. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Fischer.
    And thank all of you for the time that you have taken.
    I say to you, Ms. Dunkin, this idea of creating the 
database was good, but I have been waiting 8 years now and 
listening to complaints about how difficult it is to come up 
with the results. And I know with your background and your 
capabilities you will be able to come up with something.
    I say this to all of you working jointly. That is something 
that I think the public is entitled to and we are entitled to. 
So if you will do that as thoroughly as you can so that 
hopefully we will be able to come up with something that we 
started some 9 or 10 years ago.
    We appreciate all of you.
    Senator Sullivan has come and we are still in the middle of 
the hearing, Senator Sullivan. We will recognize you for 
questions you have.
    Let me just fill you in. One of the concerns I had was the 
database. I have been concerned about that ever since we were a 
majority some 8, 9 years ago; and they are going to be working 
on that.
    Also, I questioned the possibility of a conflict of 
interest to Dr. Burke, and he is going to be filling us in on 
some of those details. We also mentioned the Federal district 
judge and some of the comments that he made or observations 
that he made in terms of responses that some of the people 
under FOIA are trying to get.
    So that fills you in on what we were talking about.
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to thank each of the nominees for your service to 
the Country and willingness to serve. You probably have family 
members here, and I know that sometimes that can be an arduous 
process. I so appreciate your wanting to serve.
    I know many of you are already in an acting capacity, but 
maybe if I can just, for each of you, Mr. Burke, Ms. Dunkin, 
Ms. Nishida, can you just real quickly, I always like to ask 
nominees why they want to serve. What motivates you? You are 
going to have to come in front of this committee, get asked 
some tough questions. Why do you want this position?
    Each of you, please.
    Ms. Dunkin. Thank you, Senator. I chose to take this 
opportunity to serve my Country because I felt like I had 
entered public service in my previous job, but that the 
opportunity was very localized, as I worked at a school 
district, and it was an opportunity to have a broader impact. 
The Federal Government certainly has opportunities for 
improvement in IT, and I felt I could contribute to that.
    Senator Sullivan. Thank you.
    Ms. Nishida. And, Senator, from the number of years that I 
worked in the State of Maryland and also at The World Bank, I 
saw firsthand how environmental problems affect both Tribal 
Nations, as well as foreign governments, and I want to be able 
to address those concerns working in the Office for 
International and Tribal Affairs.
    Senator Sullivan. Great. Thanks.
    Mr. Burke. Senator, I know this is going to sound a little 
corny, but I think being the head scientist for ORD and working 
with that team is the best job in my field; it is the best job 
in the world. I walked away from a full professorship and a 
deanship at a pretty good university.
    Senator Sullivan. Which one was that?
    Mr. Burke. Johns Hopkins.
    Senator Sullivan. All right.
    Mr. Burke. And I did that because of the incredible 
opportunity to serve this Nation and to really be a part of the 
leadership team of what I think is the leading research 
organization in not just this Country, the entire world.
    Senator Sullivan. Great.
    I am going to raise a couple issues that I think are 
important, but you are not necessarily in charge of them. But I 
think if you saw this debate yesterday, when we marked up the 
Waters of the U.S., there is a certain frustration, certainly 
in my State, where we have the cleanest water, cleanest air 
probably in the Country. Yet I don't think a lot of Alaskans 
think it is because of the EPA. I think a lot of Alaskans think 
it is because of our own State and local government. We really 
care about these issues.
    Sometimes you hear on this committee, oh, this side cares 
more about the environment than that side. That is not true; we 
all care about the environment. But we also care about the 
Constitution, oversight, the rule of law.
    One of my frustrations, and I raised it the first time we 
had an oversight committee hearing with the Administrator was, 
do you believe, she actually believed it, so I am sure you do, 
that every regulatory action, any action that you take as the 
EPA has to be based in the statutes, in the congressional 
direction. Do you agree with that? Your boss did, so you 
probably should just say yes. Do you?
    Mr. Burke. Again, as a scientist, it is a little out of my 
range of responsibility.
    Senator Sullivan. I know.
    Mr. Burke. But I support the Administrator.
    Senator Sullivan. You know what, you don't have to answer 
that question, because I know it isn't in your realm. But the 
answer is yes, right? Every regulatory action, executive action 
that the EPA takes has to have a basis in the statute, has to 
have a basis in the law. The U.S. Supreme Court made that clear 
again last year in a case that was brought where they found 
that the EPA did not act according to the law.
    So there is a lot of concern on this committee, and I would 
say in the Congress in general, that the EPA is not always 
doing that, so I asked the Administrator if she could make sure 
that every action that they have taken is based in the law, and 
she can assure me of that.
    So I have asked for, for example, the legal opinion on the 
Waters of the United States. Big deal, what provided that. She 
hasn't provided that to me yet.
    The chairman and I, Senator Rounds, we asked in a letter to 
her to respond to this issue on the front page of The New York 
Times a couple weeks ago. She hasn't responded to that.
    Even yesterday, a pretty big deal that the EPA has decided 
now, to regulate emissions from aircraft. Again, I asked the 
Administrator at the outset, hey, if you are going to take 
action, you need to show us where your authority is in the law. 
Certainly got nothing from them on that.
    So my question is, in terms of an oversight capacity that 
we have here, in terms of the advice and consent constitutional 
role that we have to confirm you and your positions, do you 
think it is a legitimate exercise of our authority, as the 
Congress, as the oversight committee, to put a hold on your 
nominations and confirmation until we actually get legitimate 
answers from the Administrator on, for example, the Waters of 
the U.S. legal opinion? She won't give that to me. It is crazy.
    This letter that the chairman and I wrote a couple weeks 
ago, stonewall. Legal opinion. I would really like to see the 
legal opinion on the EPA's authority to regulate emissions from 
airplanes. I know they are basing that on some kind of 
international agreement. Last time I checked, the EPA's 
authority does not derive from international organizations, it 
derives from the Congress and the Constitution.
    So I know this is a bit of a tough question. I know that 
you are not involved in these issues, but do you think that is 
a legitimate exercise of our authority in the Congress, in this 
committee, to say, you know, these candidates might be 
qualified, they are certainly motivated to serve their Country, 
but until we actually get answers from the head of the EPA, who 
stonewalls this committee and this Congress, we are not going 
to move forward on any nominations. Do you think that is a 
legitimate exercise of our constitutional and oversight role?
    Senator Inhofe. From the chair, I would like all three of 
you to respond to that question, if you would.
    Ms. Dunkin. Senator, I don't feel qualified to speak to the 
procedural issues of this body.
    Ms. Nishida. Like my colleague, I am also not qualified to 
speak to the procedural issues. But I can tell you with regards 
to the actions that my office takes, it is consistent with the 
laws of the United States.
    Senator Sullivan. Look, I don't doubt what you are saying, 
but when you are just saying it and you are not showing it to 
us. Several years ago the EPA said that the actions that they 
were taking under the Clean Air Act were consistent with the 
laws of the United States. At the time I was the attorney 
general of the State of Alaska. I was one of a group that sued 
and said, actually, we don't think you are right. That went all 
the way to the U.S. Supreme Court. Last year, the Supreme Court 
said the EPA didn't have that authority; the EPA was violating 
the Constitution. The EPA was trying to take powers away from 
this body.
    So, as you can imagine, it is not just us talking in terms 
of hypotheticals; there are real instances of the EPA usurping 
the power of the Congress. And when we ask the Administrator 
for legal opinions on additional actions like the Waters of the 
U.S., 35 States oppose that, a lot of questions about whether 
that is legal and the EPA's legal authority. I have been asking 
the Administrator for months, for months, for the detailed 
legal analysis that provides the EPA the legal authority to 
issue the Waters of the U.S. rule, and she won't provide it to 
this Congress.
    So now the EPA wants the Congress to confirm you. But my 
question is should we say, now, wait a minute, you are not 
getting back to us on anything. Our oversight role, our role in 
the U.S. Constitution, pretty important, advice and consent for 
senior officials of the United States, which you would be, and 
yet we get blown off by the EPA on this letter.
    The chairman of this committee sent the EPA Administration 
a letter 2 weeks ago on a real big issue, front page of The New 
York Times saying the EPA might be violating the law. As far as 
I know, haven't heard back from her. My question is on the 
legal opinions, nothing else.
    So I am just wondering if you think it is a fair function 
of this committee to say, hold off, we are not going to move on 
any nominations until we start getting answers from the EPA. Do 
you think that that is legitimate?
    I know you are not lawyers. I know you are scientists, but 
you are also smart in the ways of Washington.
    Mr. Burke, do you think so?
    Mr. Burke. Senator, I am sorry, I do not have the expertise 
or experience. It is an important question, but I do not have 
the knowledge to really answer that. As a scientist, I really 
cannot answer that.
    Senator Sullivan. OK.
    Well, Mr. Chairman, sorry I went over, but I think it is an 
important issue. And I will just tell you, we all want clean 
water, we all want clean air. Like I said at the outset, my 
State, we live in the most pristine State in the world, 
beautiful place, cleanest water, cleanest air. We all want 
that.
    But I will tell you this, and this is not a partisan thing, 
this is the vast majority of the people who live in my State 
are very concerned about the actions of the EPA in large 
measure because Alaskans don't think that the EPA is abiding by 
the law or the Constitution. And I committed to my constituents 
to ask harder questions about this, and I have.
    And guess what? We get stonewalled. And we are the 
oversight committee. We are the committee of jurisdiction and 
we write the laws, not the EPA. And I don't think that is clear 
to the Administration. So this is an opportunity for her to 
maybe come up with some answers as we move forward to look at 
important dedicated public servants like yourselves.
    I know these are hard questions that are not necessarily in 
your realm. I don't want to at all kind of impinge your very 
strong credentials and your commitment to your Country and 
service. I really appreciate that. That is why I asked the 
question at the outset. But in some ways you are a bit in the 
crossfire of what I think is actually a really, really 
important issue that your boss seems to ignore, and that is not 
acceptable.
    Thank you, Mr. Chairman.
    Senator Inhofe. I would expand on that a little bit in just 
saying, looking at it, recognizing your area of expertise, what 
other leverage do we have?
    You know, at the beginning of this committee hearing I 
asked you do you agree, if confirmed, to appear before this 
committee or designated members of this committee or other 
appropriate committees to provide information subject to the 
appropriate and necessary security, and all of this. You all 
responded positively. So did she. This is the same oath of 
office that we got from her.
    And I think that when someone does not do what they have 
said that they would do, so help me God, what else is there for 
us to carry out the oversight provisions? I don't know of any 
other leverage that we have.
    So I think it is very appropriate that you bring this up.
    I was asked to, one of the members who was not able to be 
here, you might remember, Dr. Burke, that when Senator Barrasso 
was questioning you back in December 2013, that was a 
nomination hearing, he asked some questions. Let me just read 
it, I don't want to get this wrong. The National Academy of 
Sciences cautioned against relying on decades-old data for 
developing new national ambient air quality standards. That is 
the NAAQS that we are talking about.
    Following your December 17th, 2013 nomination hearing, you 
committed to ``reviewing this issue and working to ensure the 
integrated science assessments that provide the foundation for 
NAAQS decision reflect the best possible science.''
    I would say this, I don't think that he has actually heard 
a response. I would like to have you bring that up and also say 
what steps you have taken since becoming the EPA's science 
advisor to ensure that these science assessments no longer use 
outdated material. This is 30 years old, this scientific basis.
    What can I share with Senator Barrasso, your response to 
me?
    Mr. Burke. Thank you for the question, Senator. Since I 
have been there, there continues to be tremendous progress in 
our National Center for Environmental Assessment in those 
integrated science assessments. In fact, in a sense, the major 
report on fracking is an integrated assessment. The NAAQS are 
integrated assessments. And it is our commitment, and there has 
been tremendous progress in doing that, to revisit and 
constantly upgrade the science.
    So to my knowledge, we are making very good progress on 
that in support of the decisionmaking being inclusive and being 
up to date.
    Senator Inhofe. Well, he goes on to ask the question. He 
said during that same nomination hearing you committed to 
making underlying data used to justify EPA rulemaking public. 
So I would ask you, now, that has been 2 years ago, roughly. 
What have you done since that time in terms of fulfilling that 
commitment?
    Mr. Burke. OK, first, I was still a dean 2 years ago and I 
have been with the Agency 5 months. But we have really worked 
on that, and I have been directly involved with the group 
working not just in the Agency, but throughout the 
Administration, with the guidance from the President's science 
advisor, to improve data access.
    We are systematically looking at ways that we can make sure 
our research and the research results of the folks who receive 
grants from us can be made more accessible; that all of the 
published reports, the metadata is out there for people to look 
at, to feel confident in, because we feel that transparency is 
really the only way to be credible in science. There has been 
tremendous progress and I would be happy to provide more 
details on that.
    Senator Inhofe. OK, I would like to ask that you provide 
those details directly to Senator Barrasso, because he is 
wanting that information.
    Mr. Burke. Be happy to, Senator.
    Senator Inhofe. Now, when Senator Capito was talking and 
asking questions, it sounded like you told Senator Capito that 
science is never settled.
    Mr. Burke. Science continues to evolve constantly.
    Senator Inhofe. Would you agree that climate science is not 
settled, then?
    Mr. Burke. That is an excellent question, Senator. We 
continue to learn more every day. I think that there is great 
consensus in the scientific community that our climate is 
changing, but I think we continue to learn more about the 
mechanisms and, most importantly, about resilience to climate.
    Senator Inhofe. Well, I would suggest to you no one 
disagrees climate is changing. That is not the issue. Is it 
manmade gasses that are providing a major reason for that 
change to take place?
    You have answered the question, that is, that science is 
never settled. That is good.
    Well, I want to thank you again.
    Senator Sullivan. Mr. Chairman.
    Senator Inhofe. Yes.
    Senator Sullivan. Is it all right, just a few more 
questions?
    Senator Inhofe. As many as you want.
    And that is for anyone else who comes down, too. That is 
our policy.
    Senator Sullivan. So I do want to kind of, again, 
emphasize. You may have seen this Utility Air Regulator Group 
v. EPA. It was a Supreme Court decision from last year. If you 
haven't read it, I would highly recommend it, even though that 
is not in your area of expertise. I would highly recommend you 
read it because it is important. A lot of important quotes 
here.
    Justice Scalia, who wrote the controlling opinion, stated, 
``It is patently unreasonable, not to say outrageous, for the 
EPA to insist on seizing expansive power that it admits the 
statute is not designed to grant.'' This was just a year ago 
that that happened.
    So, again, sometimes people say, oh, this is hypothetical. 
This is not hypothetical at all. The highest court in the land 
said to your Agency, you are usurping the power of the 
Congress. And a lot of us believe that is what is going on in 
the Waters of the United States rule, which is why we are 
taking appropriate action. This committee, yesterday, marked up 
a bill that would make sure that the EPA doesn't commit that 
kind of act.
    Again, this is the May 22nd letter. I would like to submit 
this for the record, Mr. Chairman.
    Senator Inhofe. Without objection.
    [The referenced letter follows:]

                                       U.S. Senate,
                                            Washington, DC,
                                                      May 22, 2015.
Hon. Gina McCarthy,
Administrator, Environmental Protection Agency,
Washington, DC.
    Administrator McCarthy: We write to express concerns over a report 
that the Environmental Protection Agency (EPA or Agency) may have 
conducted an unprecedented lobbying and propaganda effort on behalf of 
the ``Waters of the United States'' rulemaking.
    As you know, many of the rules that are being pushed by your agency 
are controversial--including the rule to expand the scope of ``Waters 
of the United States'' under the Clean Water Act--and are expected to 
have devastating effects to the economies of many states. ours 
included. That's why a majority of states have demanded that the 
``Waters of the United States'' rulemaking be retracted or 
substantially revised before being finalized. More than 300 groups and 
associations from across the country--including the American Farm 
Bureau Federation. the National Association of Home Builders, and the 
National Mining Association--are also fighting it.
    However. in public testimony and in private meetings, EPA officials 
have consistently disregarded those concerns. and instead have sought 
to highlight the alleged public support for the rule. The Agency, along 
with many groups supporting the rule, have consistently said that it 
has received more than 1 million comments on the rule, and about 90 
percent of those comments are supportive.
    In fact, you testified at the Senate Environment and Public Works 
Committee in March, ``We have received over 1 million comments, and 
87.1 percent of those comments we have counted so far--we are only 
missing 4,000--are supportive of this rule.'' And then for emphasis, 
you repeated the claim.
    According to a May 19. 2015 New York Times article, the EPA 
embarked on an unprecedented and questionable lobbying campaign to 
generate public comments in support of this rulemaking. EPA has used a 
variety of social media tools to promote the importance of the Agency's 
rulemaking efforts and to solicit these comments, including, but not 
limited to ``Thunderclap'' to create a ``virtual flash mob,'' YouTube 
videos. and the ``#CleanWaterRules'' and ``#DitchtheMyth'' hashtags on 
Twitter.
    A deeper look at the ``1 million comments'' claim shows a more 
complicated story. According to the U.S. Army Corps of Engineers, only 
20,567 of those comments are considered ``unique'' and of those, only 
10 percent were considered substantive.
    In other words, the vast majority--more than 98 percent of the 
comments received--appeared to be mass mailings, the majority of which 
were likely generated by your agency's unprecedented lobbying efforts.
    All of the unique ``substantive'' comments were reviewed by the 
Corp of Engineers. It found that contrary to EPA's characterization, 39 
percent of those comments are supportive of the rule, while 60 percent 
are opposed to it.
    It is troubling that the EPA--which should be an unbiased source of 
information--is using taxpayer dollars to use social media for lobbying 
and propaganda purposes to promote the importance of this rulemaking 
and the Agency itself to the American public and lawmakers, in possible 
violation of the Anti-Lobbying Act, 18 U.S.C. section 1913, and 
appropriations restrictions against lobbying and propaganda. Given 
these facts, please provide answers to the following questions and all 
requested documents no later than June 5, 2015:
     Given the statements from the Army Corps of Engineers that 60 
percent of substantive comments were opposed to the proposed ``Waters 
of the United States'' rule, please explain whether the statements made 
by EPA officials that approximately 87 percent of comments received 
support the rule meet the requirements of the Information Quality Act.
     Prior to undertaking your agency's unprecedented PR campaign to 
fight for the Waters of the U.S. rule, did you seek a legal opinion 
regarding the legality of this campaign from anybody in your agency or 
from the Department of Justice or other federal officials? If so, 
please include a copy of any legal opinions received by EPA counsel, 
the Department of Justice, or other federal officials.
     Who is the EPA official or officials responsible for approving 
content disseminated on Twitter, YouTube, Facebook, and other social 
media platforms? Please describe the internal legal and policy review 
processes EPA uses for approving such communications.
     What are the EPA's policies concerning the use of social media to 
interact with the public and to promote agency activities and 
rulemakings in compliance with laws prohibiting lobbying and 
propaganda? Please provide copies of any such policies.
     Approximately how many staff hours have been devoted toward 
public relations, lobbying, and propaganda efforts in support of the 
``Waters of the United States'' rule?
     What was the cost to the taxpayers for these efforts? In 
estimating staff hours and costs spent on efforts, please include costs 
spent on contractors, for the Thunderclap for the ``Waters of the 
United States'' rule, the ``Ditch the Myth'' and ``Clean Water Rules'' 
campaigns, the YouTube and Twitter videos and statements designed to 
undermine critics of and to elicit public support for the proposed 
rule, including posting videos produced by the Choose Clean Water 
Coalition urging EPA to adopt the clean water rule.
     At a hearing on March 4, 2015, we asked you to provide the legal 
analysis that you used to formulate the ``Waters of the United States'' 
rulemaking. Please supply that analysis along with the answers to the 
above questions.
    We look forward to your timely response. Please have your staff 
contact the Committee on Environment and Public Works at (202) 224-6176 
with any questions.
            Sincerely,
                    James M. Inhofe, Chairman, Committee on Environment 
                            and Public Works; Dan Sullivan, Chairman, 
                            Subcommittee on Fisheries, Water, and 
                            Wildlife; M. Michael Rounds, Chairman, 
                            Subcommittee on Superfund, Waste 
                            Management, and Regulatory Oversight.

    Senator Sullivan. This is from the chairman, myself, 
Senator Rounds asking the Administrator a number of questions 
with regard to a front page New York Times article indicating 
the EPA may have broken the law. No response.
    Waters of the U.S., the legal opinion, been asking that for 
months. They issued the rule anyway. Just kind of ignored us. 
No response.
    And then I do think one of you actually has had some kind 
of role in the public records issue, but you may have seen a 
Federal judge in the U.S. District Court was quoted as saying, 
with regard to a recent lawsuit, ``The court is left wondering 
whether the EPA has learned from its mistakes or if it will 
merely continue to address FOIA requests in the clumsy manner 
that has become its custom. Given the offensively unapologetic 
nature of the EPA's recent withdrawal notice, the court is not 
optimistic that the Agency has learned anything.''
    So have you learned anything? That is a pretty severe 
rebuke from a Federal judge, actually, a very well respected 
Federal judge, Royce Lamberth, who has been a Federal judge in 
Washington in the Federal court here for many, many years. That 
is pretty strong language.
    Were any of you in charge of that or had anything to do 
with that lawsuit? And have you learned anything from what the 
judge was clearly troubled by?
    Mr. Burke. I am sorry, Senator, I was not involved in any 
way.
    Senator Sullivan. OK.
    Ms. Dunkin. I was also not involved with that lawsuit.
    Ms. Nishida. Senator, I was not involved with the lawsuit 
either.
    Senator Sullivan. OK. So that does relate to FOIA requests, 
where I know, and it looks like there has been some lost emails 
now and all the kind of things that, to be honest, makes the 
Congress and the citizens of our great Nation skeptical of what 
is happening.
    I just want to ask, finally, for the record here, if you 
are asked in your capacity, if you are confirmed, to be 
responsive to the committee that has oversight here, but also 
to the Congress, which, of course, has oversight, will you 
commit to do that? Unlike your boss, who I believe just 
stonewalls the Congress and this committee, and that is very, 
very troubling to me, will you commit to be responsive in a 
substantive and timely manner to the requests of this 
committee? Can you commit to that to us? Each one?
    Mr. Burke. Yes, Senator.
    Ms. Dunkin. I also commit to that, yes.
    Ms. Nishida. Yes, Senator, we will.
    Senator Sullivan. Great. It would be helpful, when you go 
back to the EPA, to pass on that message to the Administrator, 
that it would be helpful if she were responsive, thorough and 
timely in the requests from this committee and from the 
Congress, because right now she hasn't been.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Sullivan.
    Sometimes when someone who is a level down from the 
Administrator gets a request, they will feel it is necessary to 
feed that response through the Administrator. Now, what the 
Senator is asking you is, are you going to respond to our 
requests directly to us, not filtering it through the 
Administration? That would be the question I would ask. Would 
you do that?
    Ms. Dunkin. Senator, I will follow the procedures the EPA 
uses to respond working through our Office of Congressional 
Affairs.
    Senator Inhofe. I don't know what that procedure is. Does 
that procedure preclude you from having a direct response to 
our questions as an oversight?
    Ms. Dunkin. We will work through Office of Congressional 
Affairs and then we respond directly.
    Senator Inhofe. So is your answer the same, that you don't 
have a direct responsibility to respond to questions from an 
oversight committee?
    Ms. Dunkin. No, sir. We will respond.
    Senator Inhofe. Directly to us?
    Ms. Dunkin. Yes.
    Senator Inhofe. All right.
    Do you agree with that, Ms. Nishida?
    Ms. Nishida. As indicated, we have an Office of 
Congressional Affairs, and we work through the Congressional 
Affairs Office.
    Senator Inhofe. Well, I know that. I know that. But Ms. 
Dunkin qualified that and said, yes, she would do that directly 
with us. I am not very comfortable when we ask you a question 
and you respond to your office instead of responding to us. Do 
you have a problem with responding directly to us and will you 
do that?
    Ms. Nishida. Again, Senator, we will work very closely with 
our Office of Congressional Affairs.
    Senator Inhofe. Is your answer no, then?
    Ms. Nishida. Again, Senator, we will be responsive through 
our procedures with the Office of Congressional Affairs.
    Senator Inhofe. That is a pretty serious answer.
    How about you, Dr. Burke? Will you respond directly to us 
if we directly ask you a question in your capacity as 
oversight?
    Mr. Burke. Senator, I would be happy to be responsive to 
any requests from the committee.
    Senator Inhofe. Direct responses. So your answer is yes.
    Mr. Burke. I will coordinate, obviously, as part of the 
Environmental Protection Agency, I will coordinate with the 
Agency.
    Senator Inhofe. Well, you can coordinate all you want with 
the Agency, but if we ask you a direct question, I just can't 
imagine that anyone would say, as Ms. Nishida did, that, no, 
the answer is no, I won't give a direct response. So you are 
saying you will give a direct response. We are asking. I think 
that is our constitutional duty and it is in the oath you just 
took. So your answer is yes?
    Mr. Burke. Yes.
    Senator Inhofe. Thank you very much.
    I want to thank all of you. This is a serious thing that we 
are looking at.
    And when I was following Senator Sullivan's questions and 
trying to think of what leverage do we have to force someone to 
do what they have sworn they would do in their oath of office, 
I don't know what else we have.
    But I appreciate very much your time, and that extends to 
your family. Thank you very much for being here.
    We look forward to getting the written responses that we 
requested. We are adjourned.
    [Whereupon, at 10:50 a.m. the committee was adjourned.]

                                 [all]
</pre></body></html>
